    O
    F
    F
    I
    C
    E   SEMIANNUAL
    O
    F
          REPORT
    I
    N
          TO THE
    S
    P    CONGRESS
    E
    C
    T
               NATIONAL ENDOWMENT FOR THE
    O
                    HUMANITIES
    R
                   OCTOBER 1, 2000 TO MARCH 31, 2001
    G
    E
    N
    E
-
    R     "Democracy demands wisdom and vision in its citizens"
        National Foundation on the Arts and the Humanities Act of 1965
    A
    L
                  Phone 202/606-8350 Fax 202/606-8329 E-mail oig@neh.gov




                                           April 30, 2001

Honorable William R. Ferris
Chairman
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Ferris:

Enclosed is the Semiannual Report for the Office of Inspector General (OIG) for the period
October 1, 2000 – March 31, 2001. The report, which is required by the Inspector General Act as
amended, provides an overview of the activities of the OIG during this six-month period. The Act
requires that you transmit this report, with your Report of Final Action, to the appropriate
congressional committees within 30 days of receipt.

I look forward to continue working with you and agency managers, the NEH employees Union,
Congress, and NEH's various stakeholders to help ensure that NEH delivers grant awards in an
economical and efficient manner.

I appreciate your continued support for our office's work.


                                                  Respectfully,




                                                  Sheldon L. Bernstein
                                                  Inspector General



Enclosure
                                          TABLE OF CONTENTS



LETTER TO THE CHAIRMAN

REPORTING REQUIREMENTS

INTRODUCTION ................................................................................................................................   1

AUDIT, SURVEY, AND INSPECTION ACTIVITIES...........................................................................                             2

INVESTIGATION ACTIVITY...............................................................................................................           7

OTHER ACTIVITIES...........................................................................................................................     9

TABLE I - INSPECTOR GENERAL-ISSUED REPORTS...................................................................                                   13
WITH QUESTIONED COSTS

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS WITH .......................................................                                        13
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY ..........................................................................................                        14




NEH OIG Semiannual Report                                                                                                      March 2001
                            REPORTING REQUIREMENTS



The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
requirements for semiannual reports. The requirements are listed and cross-referenced to the
applicable pages in this report.


IG Act Reference            Reporting Requirements                                      Page

Section 4(a)(2)             Regulatory and Legislative Reviews……………………………… 8

Section 5(a)(1)             Significant Problems, Abuses, and Deficiencies………………… 2-8

Section 5(a)(2)             Recommendations for Corrective Action ………………………… 2-6

Section 5(a)(3)             Prior Significant Recommendations Unimplemented…………… *

Section 5(a)(4)             Matters Referred to Prosecutive Authorities……………………… 8

Section 5(a)(5)             Instances Where Information Was Refused or Not Provided…… *

Section 5(a)(6)             List of Audit Reports Issued………………………………………… 2

Section 5(a)(7)             Summary of Significant Reports…………………………………… 2-6

Section 5(a)(8)             Audit Reports - Questioned Costs….……………………………… 13

Section 5(a)(9)             Audit Report - Funds To Be Put to Better Use.…….…………….. 13

Section 5(a)(10)            Prior Audit Reports Unresolved…………………………………..… *

Section 5(a)(11)            Significant Revised Management Decisions………………………. *

Section 5(a)(12)            Significant Management Decisions with which OIG Disagreed…..*


         * None this period




NEH OIG Semiannual Report                                                              March 2001
                                   INTRODUCTION

                THE NATIONAL ENDOWMENT FOR THE HUMANITIES

In order to promote progress and                    The act that established the National
scholarship in the humanities and the arts in       Endowment for the Humanities says "The
the United States, Congress enacted the             term 'humanities' includes, but is not limited
National Foundation on the Arts and the             to, the study of the following: language,
Humanities Act of 1965. This act                    both modern and classical; linguistics;
established the National Endowment for the          literature; history; jurisprudence; philosophy;
Humanities as an independent grant-making           archaeology; comparative religion; ethics;
agency of the federal government to support         the history, criticism, and theory of the arts;
research, education, and public programs in         those aspects of social sciences which have
the humanities. Grants are made through             humanistic content and employ humanistic
four divisions - Research Programs,                 methods; and the study and application of
Education Programs, Preservation and                the humanities to the human environment
Access, and Public Programs -- and three            with particular attention to reflecting our
offices -- Challenge Grants, Enterprise, and        diverse heritage, traditions, and history and
Federal-State Partnership.                          to the relevance of the humanities to the
                                                    current conditions of national life."



                            THE OFFICE OF INSPECTOR GENERAL

 The NEH Office of Inspector General was            •   reports directly to Congress.
established on April 9, 1989, in accordance
with the Inspector General Act                      The Act states that the Office of Inspector
Amendments of 1988, (Public Law 100-                General is responsible for (1) conducting
504). In this legislation, Congress                 audits and investigations; (2) reviewing
established Offices of Inspector General in         legislation; (3) recommending policies to
several departments and in thirty-three             promote efficiency and effectiveness; and
agencies, including NEH. The NEH                    (4) preventing and detecting fraud, waste,
Inspector General (IG) is appointed by the          and abuse in the operations of the agency.
Chairman. The independence of the IG is             The Inspector General is also responsible
an important aspect of the Act. For                 for keeping the Chairman and Congress fully
example, the IG:                                    and currently informed of problems and
                                                    deficiencies in the programs and operations.
•   cannot be prevented from initiating,
    carrying out, or completing an audit or         The OIG staff consists of the Inspector
    investigation, or from issuing any              General, a Deputy Inspector General for
    subpoena;                                       Audits, two auditors, and a secretary. The
                                                    OIG and the Office of General Counsel
•   has access to all records of the agency;        (OGC) have a Memorandum of
                                                    Understanding detailing the procedures for
•   reports directly to the Chairman, and           the OIG to be provided with OGC legal
    can only be removed by the Chairman,            services. Investigations are handled by the
    who must promptly advise Congress of            Inspector General, an auditor and as
    the reasons for the removal; and                required by the agency’s Assistant General
                                                    Counsel.



NEH OIG Semiannual Report                       1                                        March 2001
         AUDIT, SURVEY, AND INSPECTION ACTIVITIES

This office is responsible for external and           reviews/evaluations of the NEH
internal audits. External auditing includes           administrative, programmatic, and financial
grants, pre-award accounting system                   operations.
surveys, review of OMB Circular A-133
reports, and on-site quality assurance                During this reporting period, the OIG
reviews of CPA work papers. Internal efforts          received and processed 132 OMB Circular
consist of audits, inspections, and                   A-133 audit reports and issued six
                                                      memorandum reports containing findings
                                                      (see Single Audit Act Reviews).

                             LIST OF AUDIT REPORTS ISSUED
The following is a list of audit/survey reports       Dollar Value of Questioned Costs (including
issued by the OIG during the reporting                a separate category for the dollar value of
period. The Act requires us to report on the          unsupported costs)." None are reported
"Dollar Value of Recommendations that                 during this period.
Funds Be Put to Better Use," and the "Total

INTERNAL AUDITS/REVIEW                                    Report Number              Date Issued
                                                                                                1
Review of NEH Annual Performance Plan                     OIG-00-01(IR)              11/03/00
 Prepared Under the Government Performance
 Results Act (The Results Act)
                                                                                                2
Review of the Process and Controls of the                 OIG-00-02 (IR)             12/05/00
 NEH ″My History is America's History″ Project
                                                                                                3
Interim Report on the Use of Cookies                      OIG-01-01 (IR)             03/01/01
                                                                                                4
Review of the OIRM Strategic Information Technology       OIG-01-02 (IR)             03/29/01
 Plan
EXTERNAL AUDITS/REVIEWS
                                                                                                4
Amerika Samoa Humanities Council                          OIG-01-01 (ER)             10/30/00
Children's Museum of Rhode Island                         OIG-01-01 (EA)             01/24/01
James Agee Film Project - Follow-up                             -                    01/23/01
 And Additional Review
SINGLE AUDIT ACT REVIEWS
Newberry Library                                          OIG-01-01 (CAA)            03/30/01
Spokane Tribe of Indians                                  OIG-01-02 (CAA)            03/30/01
West Virginia Humanities Council                          OIG-01-03 (CAA)            03/30/01
Nevada Humanities Council, Inc.                           OIG-01-04 (CAA)            03/30/01
Minnesota Humanities Commission                           OIG-01-05 (CAA)            03/30/01
Virgin Islands Humanities Council                         OIG-01-06 (CAA)            03/30/01

1
  Draft report was issued on 09/29/00.
2
  Draft report was issued on 08/29/00.
3
  Final Report
4
  Draft Report



NEH OIG Semiannual Report                         2                                      March 2001
                      SUMMARY OF REPORTS ISSUED

                                      INTERNAL AUDITS
       PROCUREMENT OF PRINTING SERVICES FROM GPO NEEDS IMPROVEMENT

Review of the Process and Controls of The               Our review revealed instances where
NEH "My History is America's History''                  procurement of printing services from the
Project                                                 Government Printing Office was not being
August 29, 2000           OIG-00-02 (IR)                entered in the NEH's official requisition system.
                                                        In addition, we noted that budget information
The objectives of the review were to 1)                 maintained by the technical representative was
ascertain policies and procedures pertaining to         not reconciled to the official NEH accounting
procurement of printing services for the "My            records.
History is America's History" project, and 2)
ascertain and evaluate management controls              We made several recommendations to
over budget and accounting information for the          strengthen management controls applicable to
project.                                                the process of procuring printing services from
                                                        GPO.



         NEH NEEDS TO STRENGTHEN VALIDATION AND VERIFICATION PROCESS

Review of the NEH Annual Performance                    met the requirements of the Results Act and
Plan Prepared Under the Government                      related expectations, we designed our review
Performance Results Act (The Results Act)               to address three core areas:
September 30, 2000         OIG-00-01 (IR)
                                                        1. Annual Performance Goals and Measures
The objective of our review of the NEH annual           2. Strategies and Resources
performance plan was to assess the agency's             3. Validation and Verification
progress towards meeting the expectations of
the Results Act and to identify opportunities for       We concluded that the FY 2000 Annual
the agency to refine and clarify the plan.              Performance Plan generally met the
                                                        requirements of the Results Act and related
As a framework for our review, we referred to           expectations. The plan generally outlined
the guide entitled, The Results Act - An                intended performance across the agency,
Evaluator's Guide to Assessing Agency Annual            briefly mentioned strategies and resources the
Performance Plans, developed by the                     agency will use to achieve its performance
Advanced Studies and Evaluation                         goals, and provided some assurance that its
Methodology group in the General                        performance information would be credible.
Government Division of the General
Accounting Office.                                      We made numerous recommendations for
                                                        the NEH Office of Strategic Planning to
To accomplish our objective we reviewed the             consider. A major concern of ours is the
FY 2001 Performance Plan, reviewed the NEH              validation process since most of the
Strategic Plan for FY 1998 - FY 2002, and               performance information is obtained from
interviewed agency officials and staff involved         grantees. We believe this initial review will be
with the development of the FY 2001                     beneficial in moving NEH towards an improved
Performance Plan. In order to assess the                plan that will showcase NEH's work.
extent to which the FY 2001 Performance Plan




NEH OIG Semiannual Report                           3                                          March 2001
                       NEH PLACES COOKIES ON VISITORS' COMPUTERS

Interim Report On The Use of Cookies                   of the OIG review were to determine 1) if NEH
March 1, 2001          OIG-01-01 (IR)                  places "persistent cookies" on visitors'
                                                       computers, 2) whether NEH tracks information
On December 21, 2000, Congress passed                  obtained from the cookies, and 3) the
legislation that required the IGs from each            adequacy of the privacy statements included
department and agency to report to Congress            on each web site. To test the placement of
on any collection of personally identifiable           cookies, we accessed the home pages for the
information on Internet sites. Such information        three NEH web sites using a computer outside
could be collected either on agency web sites          of the .gov and .neh domain.
or through third party agreements.
                                                       Our review disclosed that persistent cookies
The Office of Inspector General performed a            are placed on visiting computer hard drive's
review of Internet Privacy and NEH's use of            when the NEH and My History web sites are
cookies on its web sites. A cookie is a short          accessed. The EDSITEment web site places
string of text - not a program - that is sent to       no cookies on visiting computer hard drives.
your browser when you access a web site.               Privacy statements on both the NEH and My
The use of cookies allows the server to                History web sites states that "if you do nothing
recognize returning users. There are two               during your visit but browse through the
types of cookies "persistent cookies" and              website, … we will gather and store
"session cookies." Persistent cookies is a             information about your visit automatically…that
more permanent line of text that tract                 the information does not identify you
information over time and remains stored on            personally." The statement does not indicate
the users computers until the specified                that NEH will place cookies on visiting
expiration date. Session cookies are used              computer hard drives to identify visitors.
only during a single browsing session and do
not collect information in ways that raise             Our recommendation was for NEH to
privacy concerns. Session cookies are stored           discontinue the use of the "cookies" in order to
temporarily in the computer's ram.                     comply with government regulations. Our final
                                                       report will be issued when NEH has
NEH has three web sites [NEH, EDSITEment,              implemented the recommendation.
& My History is America's History (My History)]
available for public access. The objectives



        COMPUTER PLANS NEED TO BE INCLUDED IN AGENCY'S STRATEGIC PLAN

Review of the OIRM Strategic Information               information technology long-range strategic
Technology Plan                                        plan are reflected in NEH's strategic plan, 2)
March 29, 2001            OIG-01-02 (IR)               OIRM is not in compliance with NEH
                                                       Administrative Directive M-600 to develop
The OIG performed a review of the Office of            annual plans (the Directive was issued in 1985
Information Resources Management (OIRM)                and it does not reflect the client/server
Strategic Information Technology Plan and the          environment in which NEH currently operates).
process used to develop the plan. The
purpose of the review was to determine                 The NEH Chief Information Officer
whether OIRM was doing strategic planning              concurred with our recommendation that
and the adequacy of the documentation of the           NEH develop a written Strategic Plan for OIRM
planning process.                                      based on the NEH Strategic Plan and the
                                                       OIRM plan should be incorporated in the NEH
Our review disclosed that 1) there is no               Strategic Plan. We agreed to provide
procedure in place at NEH to ensure that               assistance as required to implement the
issues and opportunities identified in the             recommendations.


NEH OIG Semiannual Report                          4                                          March 2001
                             EXTERNAL AUDITS/REVIEWS
 GRANTEE NEEDS TO IMPROVE THE MONITORING AND CONTROLLING OF GRANT FUNDS

America Samoa Humanities Council                      Our review revealed that 1) monthly financial
October 30, 2000 OIG-01-01 (ER)                       reports to management and the Board of
                                                      Directors were being prepared, 2) procedures
The objective of the review was to determine          were in place to eliminate the segregation of
the adequacy and extent of the Amerika                duties concern, and 3) the executive director
Samoa Humanities Council's (Council)                  was performing a proper review of the
resolution of audit findings contained in A-133       accounting transactions. Also, we determined
audit reports for the fiscal years ended              the monthly financial reports still contained
October 31, 1995 and 1996. The independent            weaknesses. In addition, we found that the
public accountant (IPA) reported several              Council's procedures for controlling and
findings with some have a major impact on the         monitoring regrant funds were inadequate.
accountability for the NEH grant. The IPA
noted that 1) inadequate and sometimes no             We made several recommendations to
financial reports were prepared for the               improve the sufficiency of the monthly financial
executive director and Board of Directors, 2)         reports and for improving the procedures for
the disbursement functions had improper or            monitoring and controlling regrant funds. In
unclear segregation of duties/functions, and 3)       addition, we recommended improvements to
no supervisory review of accounting                   the travel policy, the General Operations and
transactions had taken place.                         Procedures Manual, and the Fiscal Agent
                                                      Procedures Manual.



                GRANTEE'S CLAIM REQUIRES SUPPORTING DOCUMENTATION

Children's Museum of Rhode Island                     Our review revealed that the Museum was 1)
October 26, 2000      IG-01-01 (EA)                   not in compliance with the Davis-Bacon Act
Interim Report                                        (wages paid by a contractor were not
                                                      monitored to determine if prevailing wages
The objective of our audit was to determine if        were paid), 2) donor letters supporting gifts
the amounts certified by the Museum on an             totaling $444,000 were in on the corporation's
NEH challenge grant were allowable. The               or foundation's letter head and did not clearly
audit was requested by NEH management                 indicate that the gift was in support of the NEH
because the Museum did not submit final               challenge grant, and, 3) $4,000 in donations
financial and narrative reports. We issued an         were pledges not received or pledges honored
interim report to immediately advise NEH              after the grant period ended.
management of our findings and to provide the
Museum an opportunity to provide the missing          We made recommendations concerning the
documents prior to the release of our final           specific actions that the Museum must take to
report.                                               provide the OIG with adequate documentation.
                                                      If the documentation is not received, we will
                                                      question $105,878.




NEH OIG Semiannual Report                         5                                          March 2001
                              GRANTEE MISSING DOCUMENTATION

James Agee Film Project - Follow-up and                   $5,791. We also found that the IPA's report for
Additional Review     January 23, 2001                    1995 contained question costs. The grantee
Memo Report                                               provided adequate documentation to support
                                                          most of the questioned costs; however, will still
The objective of our review was to determine              have questioned $6,669. The total for the two
what action the grantee had taken since we                years amounts to $12,460.
issued our report OIG-99-23 (CAA) on
September 29, 2000.                                       We recommended that NEH recover the
                                                          $12,460. The NEH's Division of Public
In our report we noted that the Independent               Programs and the Office of Grants
Public Accountant (IPA), who performed an                 Management have notified the OIG that the
OMB Circular A-133 audit for the fiscal year              OIG should not seek recovery because they
1994 reported questioned costs. Another                   have determined the grantee completed the
objective was to review the IPA's audit report            project and NEH has received "value for the
for the fiscal year 1995 to find out if that report       funds expended.'' We are waiting for a
had any costs questioned.                                 response from the Deputy Chairman and
                                                          General Counsel. Therefore, we are not
Our review revealed that the grantee was                  reporting the $12,460 as questioned costs at
able to provide documentation to reduce the               this time.
questioned costs reported in the 1994 audit to




NEH OIG Semiannual Report                             6                                          March 2001
                            INVESTIGATION ACTIVITY

                                         BACKGROUND

The Inspector General Act provides the                 When the OIG receives a complaint or
authority for the Office of Inspector General to       allegation of a criminal or administrative
investigate possible violations of criminal or         violation, we make a determination of the
civil laws, administrative regulations, and            appropriate action to take. This can be an
agency policies, which relate to the programs          audit, an investigation, a referral to another
and operations of the NEH. The OIG Hotline,            NEH office or division, or a referral to another
e-mail address, and regular mail are efficient         federal agency.
and effective means of receiving allegations or
complaints from employees, grantees,                   As of October 1, 2000, we did not have any
contractors, and the general public. The OIG           active complaints. During the six months
has obtained assistance from other OIGs, the           ending March 31, 2001, we received 14
Federal Bureau of Investigation, the Postal            "Hotline" contacts. Two cases were open at
Inspection Service, and other investigative            March 31, 2001.
entities as applicable.

                               CONTACTS DURING THIS PERIOD

We received eight internal (NEH staff) contacts        •   One allegation that an applicant for an
this period.                                               NEH grant was being investigated by the
                                                           OIG of the Corporation for National
•   Two allegations involved violations of merit           Service (CNS). We contacted the CNS
    selection principles. We found no basis for            and learned they and other federal
    the allegations in either case.                        agencies are working on an investigation
                                                           concerning misuse of funds. This
•   Four allegations concerned unwanted e-                 investigation is on going. We instructed
    mail and we referred these to the Federal              the NEH to hold off making the award until
    Trade Commission.                                      this matter is resolved.
•   One allegation concerned the Combined              •   One allegation that a university, acting as
    Federal Campaign and a possible privacy                the sponsoring organization for a project,
    violation. Our review found no basis for               had no right to submit an application
    the allegation.                                        involving the project to NEH for a grant.
                                                           The allegation was made by a principal on
•   One anonymous e-mail complaint that
                                                           the project. We opened an investigation
    concerned the security of confidential
                                                           and worked with the attorney for the
    information from visitors to the NEH
                                                           individual who made the allegation and the
    Accounting Office. We spoke with the
                                                           attorney for the university acting as the
    appropriate personnel in the Accounting
                                                           sponsoring organization. We agreed to let
    Office and corrective action was taken.
                                                           the attorneys resolve the issue. We
We received three allegations concerning                   advised the NEH, should the subject
grantees and applicants for NEH grants.                    application be approved for funding, not to
                                                           make an award until the matter is resolved.
•   One allegation concerning the use of a
    vehicle by a Board member of a grantee.            Three other matters were brought to our
    In response to this allegation, we opened          attention and we determined that they had no
    an investigation. We are continuing to             basis to open an investigation.
    work on this case.
                                                       As of March 31, 2001, the two matters
                                                       concerning grantees were open.


NEH OIG Semiannual Report                          7                                           March 2001
                     MATTERS REFERRED TO PROSECUTIVE AUTHORITIES


                            No new cases were referred for criminal prosecution.


                                HOTLINE AND PREVENTION ACTIVITIES


We maintain a local Hotline phone number,                   We continue to issue agency-wide e-mail
agency e-mail address, and an Internet                      messages to NEH staff informing them of the
address. We maintain all three to provide                   violations that should be reported to the OIG.
additional confidentiality for those persons                We use e-mail messages to inform NEH staff
bringing matters to the attention of the OIG.               about the OIG operations several times during
                                                            the year. Posters advising staff to contact the
                                                            OIG are posted throughout the agency
                                                            building.

                                          ANONYMOUS E-MAIL


We now have on the NEH Intranet and the                     and mismanagement in an anonymous
Internet a system for staff, grantees,                      manner. Two contacts were received this
contractors, etc., to report waste, fraud, abuse,           period via this system.


                                        INVESTIGATION ACTIVITY


                       Open at beginning of period                    0

                        Matters brought to the OIG                   15
                        during the reporting period

                        Total Investigative contacts                 15

                            Closed or referred during                13
                                reporting period

                             Open at end of Period                    2




NEH OIG Semiannual Report                               8                                         March 2001
                                   OTHER ACTIVITIES

                            INDIRECT COST RATE NEGOTIATIONS/REVIEWS

Grantees are entitled to recover total project            difficulties, however, preclude such an
costs, both direct and indirect. Indirect costs           approach. Therefore, they are usually grouped
are those costs of an organization or institution         into a common pool(s) and distributed to those
that are not readily identifiable with a particular       organizational or institutional activities that
project or activity but are nevertheless                  benefit from them through the expedient of an
necessary to the general operation of the                 indirect cost rate(s).
organization or institution and the conduct of
the activities it performs.                               Cognizant federal agencies approve the rates
                                                          after reviewing cost allocation plans submitted
The cost of office supplies, general telephone,           by grantees. The approved rate will generally
postage, accounting, and administrative                   be recognized by other federal agencies.
salaries are types of expenses usually
considered as indirect costs. In theory, all              During this period, we negotiated indirect cost
such costs might be charged directly; practical           rates with five grantees.

                    INDIRECT COST RATE DESK REVIEW REPORTS ISSUED


Grantee                                                     Report Number               Date Issued

American Antiquarian Society                                OIG-01-01 (IDC)             10-04-2000
Albany Institute of History and Art                         OIG-01-02 (IDC)             10-04-2000
American Library Association                                OIG-01-03 (IDC)             10-05-2000
The Center for Research Libraries                           OIG-01-04 (IDC)             10-06-2000
National Video Resources                                    OIG-01-05 (IDC)             03-30-2001




NEH OIG Semiannual Report                             9                                         March 2001
                                 SINGLE AUDIT ACT REVIEWS

We receive audit reports on NEH grantee                addition, we expended considerable effort in
organizations from other federal agencies,             determining which grantees have not
state and local government auditors, and               submitted OMB Circular A-133 audit reports.
independent public accountants. These                  We have discovered that several organizations
reports are the result of OMB Circular A-133           do not have sufficient funds for audits by
audits. The single audits report on financial          independent public accountants.
activities, compliance with laws and
regulations, and grantee management                    The OIG is working with these organizations
(internal) controls over federal expenditures.         and their independent public accountants to
In most instances, the cognizant agency is the         develop an appropriate cost-effective audit
Department of Health and Human Services                approach.
(the federal agency with the predominant
financial interest).                                   To ensure that we receive OMB Circular A-133
                                                       audit reports from the state humanities
During this period we received and processed           councils in a timely manner, we sent an e-mail
132 audit reports. Six reports contained               message to all of the executive directors and
findings related to NEH grants. We are                 Board chairpersons. We will continue to send
continuing our follow-up work on these. In             reminders to the state councils.

                              A-133 COMPLIANCE SUPPLEMENT

State humanities councils that receive at least        with OMB updating the compliance
$300,000 per year are subject to Office of             supplement for the NEH Federal/State
Management and Budget Circular A-133,                  Partnership program, (CFDA 45.129) which is
“Audits of States, Local Governments, and              included in the OMB Circular A-133
Non-Profit Organizations". We have worked              Compliance Supplement.

                                         PEER REVIEWS

The U.S. International Trade Commission OIG            President's Council on Integrity and Efficiency.
completed a peer review of our audit                   We have made several office policy and
operations.                                            procedure changes based on the peer
                                                       reviewer's comments.
The ITC concluded that our system of quality
control for audits in effect for the year ended        In addition, we completed a peer review of the
September 30, 2000, generally complied with            Commodity Futures Trading Corporation OIG
quality standards established by the                   audit operations.


                  FEDERAL MANAGER'S FINANCIAL INTEGRITY ACT REVIEW

The Federal Managers' Financial Integrity Act          Each year, we review the Agency's FMFIA
(FMFIA), Section 2 requires NEH management             process to assess its completeness in
to provide assurance to the President and              reporting weaknesses and deficiencies. This
Congress that agency resources are protected           year, we advised management of follow-up
from fraud, waste, mismanagement, and                  actions necessary to resolve issues identified
misappropriation.                                      by the Division directors and office heads.




NEH OIG Semiannual Report                         10                                          March 2001
                                INTRA-AGENCY COOPERATION


In this period, OIG staff attended and engaged         OIG staffperson attended monthly NEH
in various NEH meetings - panel meetings               Employee Association Meetings. The staff
(where grant applications are reviewed by              were also involved in the review of NEH
outside consultants), pre-council meetings             administrative directives.
(where the program divisions discuss the panel
review results with the chairman and his               The Office of Inspector General contributes to
immediate staff), and the National Council             the discussions; however, the office does not
meeting. In addition, the IG attended the              participate in policy making.
chairman's monthly policy group meetings. An

                                 CONGRESSIONAL REQUESTS

     We received and responded to several requests from both Senators and Congressmen.

                        PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                 INTEGRITY AND EFFICIENCY

The Executive Council on Integrity and                 and waste in federal programs and operations.
Efficiency (ECIE) was established by the               OIG staff regularly attend ECIE meetings and
President in 1992 to coordinate and implement          provide information to the ECIE.
government-wide activities to combat fraud

                            REGULATORY AND LEGISLATIVE REVIEWS

The Inspector General Act of 1978, as                  (1) impacts on the economy and efficiency of
amended, requires the Office of Inspector              agency programs and operations, and (2)
General to review proposed legislation and             contains adequate internal controls to prevent
regulations. The reviews are made to assess            and detect fraud and abuse. During this period
whether the proposed legislation or regulation         we provided the ECIE with comments on
                                                       various matters affecting the OIG community.

                                 OIG INTERNET AND INTRANET

The OIG has listed several semiannual reports          To enhance the NEH staff's recognition of the
on the Internet. The reports are accessible            OIG mission and responsibilities, we provide
through the Inspectors General homepage                links to several other federal agencies such as
(http://www.ignet.gov/ignet/internal/neh/html).        the Office of Management and Budget, the
The reports link to the NEH homepage                   General Accounting Office, the Office of
(http://www.neh.gov/html/oig/). To access the          Government Ethics, and the IGNET.
semiannual reports from outside the NEH,
enter the URL http://www.ignet.gov.




NEH OIG Semiannual Report                         11                                         March 2001
                                    A-133 WAIVER ISSUED BY NEH


NEH has waived the A-133 audit requirement                  OMB Circular A-133 provides guidance on how
for grants awarded in the Centers Program                   to implement the Single Audit Act
and the International Program. The                          Amendments of 1996. It is the OIG's position
justification for waiving the A-133 audit                   that NEH does not have any provision in its
requirement for Centers grants was "…the fact               reauthorizing legislation or its annual
that our support of these projects was limited              appropriation that gives it authority to waive
to publicity, selection costs, and the actual               A-133 audit requirements. We requested that
fellowship stipends, with the majority of funding           the NEH Office of General Counsel provide the
going to stipends. Since we know who are                    OIG with a written opinion on the propriety of
selected as fellows, what their projects are,               the A-133 waiver by the end of May 1999.
and how much they receive in the way of NEH
support, we saw no reason to insist on an audit             A draft opinion was received in September
of these grants. We are now recommending                    2000, recognizing that NEH did not have the
the same approach for the International                     authority to waive the A-133 audit
Program because, except for a small amount                  requirements for particular grantees or
of funding for administrative costs, the use of             organizations.
NEH funds is limited to publicity, selection
costs and stipends." 1/


1/ Memorandum from Director of Grants Office to Deputy Chairman.




NEH OIG Semiannual Report                              12                                        March 2001
                                                TABLE I
                                   INSPECTOR GENERAL-ISSUED REPORTS
                                         WITH QUESTIONED COSTS

                                                                   Number      Questioned      Unsupported
                                                                  Of Reports     Cost             Cost
A. For which no management decision has been made by the             -0-         $ -0-           $ -0-
   commencement of the reporting period.

B. Which were issued during the reporting period.                     -0-          -0-                - 0-

                            Subtotals (A+B)                           -0-        $ -0-            $ - 0-

C. For which a management decision was made during the
   reporting period.

         i.       Dollar value of disallowed costs.                   -0-       $ -0-           $ - 0-

         ii.      Dollar value of costs not disallowed (grantee       -0-       $ -0-           $ - 0-
                  subsequently supported all costs).


D. For which no management decision has been made by                  -0-       $ -0-           $ - 0-
   the end of the reporting period.
.

E. Reports for which no management decision was made                  -0-       $ -0 -            $   -0-
   within six months of issuance.



                                          TABLE II
                             INSPECTOR GENERAL-ISSUED REPORTS
                    WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                      Number           Dollar
                                                                                     of Reports        Value

A. For which no management decision has been made by the commencement of                 -0-           $-0-
   the reporting period.

B. Which were issued during the reporting period.                                        -0-           $ -0 -

C. For which a management decision was made during the reporting period.                 -0-          $-0-

         i.       Dollar value of recommendations that were agreed to by                 -0-           $-0-
                  management.

         ii.      Dollar value of recommendations that were not agreed to by             -0-           $-0-
                  management.

D. For which no management decision was made by the end of the reporting period.         -0-           $-0




NEH OIG Semiannual Report                         13                                 March 2001
                  GLOSSARY OF AUDIT TERMINOLOGY

Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a
provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds; because such cost is not supported by adequate
documentation; or because the expenditure of funds for the intended purpose is unnecessary or
unreasonable.

Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at
the time of the audit.

Disallowed Cost - A questioned cost that management, in a management decision, has
sustained or agreed should not be charged to the government.

Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could
be used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
unnecessary expenditures, or taking other efficiency measures.

Management Decision - The evaluation by management of the audit findings and
recommendations and the issuance of a final decision by management concerning its response to
such findings and recommendations.

Final Action - The completion of all management actions, as described in a management
decision, with respect to audit findings and recommendations. When management concludes no
action is necessary, final action occurs when a management decision is made.

Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L.
100-504).




NEH OIG Semiannual Report                       14                                      March 2001
                     THE OFFICE OF INSPECTOR GENERAL

                                serves American taxpayers
                          by investigating reports of waste, fraud,
                       mismanagement, abuse, integrity violations or
                        unethical conduct involving federal funds.


                             To report any suspected activity
                    involving NEH programs, operations, or employees


                                        Please Call

                                      (202) 606-8423

                                            or,

                                          Write


                       Office of Inspector General-Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506

                                   FAX: (202) 606-8329


                                ELECTRONIC MAIL HOTLINE
                                     OIG@neh.gov




• Government employees are protected from reprisal

• Caller can remain anonymous

• Information is confidential
